                                             Report No. AUD-09-007                                                                              March 2009

                                             Control Improvements Undertaken by the Division
                                             of Information Technology to Ensure the
   Federal Deposit Insurance Corporation     Confidentiality of Sensitive Email Communications
Why We Did The Audit                         Audit Results
On October 6, 2008, the Director of the
FDIC’s Division of Information               As reflected in the table below, the control improvements described in the DIT
Technology (DIT) issued a                    Memorandum were adequate, fully implemented, and generally operating as
memorandum to the FDIC Chairman              intended.
(referred to herein as the DIT
Memorandum), summarizing the status                                                                                                      Control
                                                                                              Control                Control         Improvement is
of control improvements intended to                                                       Improvement is        Improvement is        Operating as
address five specific email security               Issues in the DIT Memorandum             Adequate           Fully Implemented        Intended
issues. The Director, DIT, requested         Issue #1 – Too many contractors have

the FDIC Office of Inspector General
                                             administrator rights in the email
                                             environment.
                                                                                                 9                    9                     *
(OIG) to assess DIT’s actions to address     Issue #2 – Monitoring and logging of
the five issues. The Director, DIT, also
separately requested that the OIG assess
                                             contractor administrator’s access to email
                                             accounts need improvement.
                                                                                                 9                    9                    9
DIT’s efforts to use content filtering       Issue #3 – The process for encrypting
technology for corporate email               sensitive email communications can be
                                             cumbersome.
                                                                                                 9                    9                    9
communications. In response to these         Issue #4 – Contractors have administrator
requests, the OIG contracted with            rights, which could allow unauthorized
KPMG LLP (KPMG) to audit these               access to email communications on
                                             desktops, laptops, and the
                                                                                                 9                    9                    9
areas.                                       “U:” drive.
                                             Issue #5 – Roles and responsibilities of
The audit objectives were to (1)
determine whether the control
                                             contractor staff operating the Enterprise
                                             Vault need further review.
                                                                                                 9                    9                    9
improvements described in the DIT            9 Completed.
Memorandum were adequate, fully              * Although DIT implemented appropriate control improvements to address Issue #1, we were unable to fully
                                             assess whether these control improvements operate as intended because they were recently implemented.
implemented, and operating as intended       The OIG may assess whether these control improvements operate as intended as part of its planned security
and (2) assess DIT’s efforts to leverage     evaluation required by the Federal Information Security Management Act of 2002.
content filtering technology on
corporate email to mitigate the loss of      Although KPMG’s work identified the need for additional control improvements to
sensitive business data. As part of the      fully address the five email security issues contained in the DIT Memorandum, DIT
audit, KPMG assessed the status of
                                             took prompt action to implement these additional control improvements prior to the
DIT’s ongoing security control
improvements and the OIG-                    close of the audit.
recommended control enhancements
                                             DIT completed a pilot implementation of email content filtering technology.
described in the OIG’s August 2008
report, entitled Controls for Protecting     However, DIT temporarily discontinued the use of the email content filtering prior
the Confidentiality of Sensitive Email       to the start of the audit. Based on concerns KPMG raised during the audit, DIT
Communications (OIG Report                   developed a formal policy and configuration management plan to govern email
No. AUD-08-013).                             content filtering at the FDIC.

Background                                   KPMG’s report summarizes the status of DIT’s ongoing security control
                                             improvements and the OIG-recommended control enhancements described in OIG
The FDIC uses email extensively to           Report No. AUD-08-013.
exchange business information
internally and externally. The National
Institute of Standards and Technology
                                             Recommendation and Management Response
recommends that organizations consider       KPMG recommended that the Director, DIT, implement content filtering technology
the use of email content filtering
                                             on corporate email to mitigate the risk of loss of sensitive business data consistent
technology to mitigate the risk of loss of
sensitive business data.                     with NIST-recommended practices and the FDIC’s policies and procedures.
                                             Management concurred with our recommendation and plans to take responsive
DIT has overall responsibility for           actions, subject to the concurrence of the FDIC Chairman.
providing email service to the
Corporation and for maintaining the          This report addresses issues associated with information security. Accordingly, we
FDIC’s email infrastructure.                 do not intend to make public release of the specific contents of the report.
